                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




INSPECTION REPORT
Conference Management at Selected
Department Sites




 DOE/IG-0913                         June 2014
                                 Department of Energy
                                   Washington, DC 20585

                                          June 3, 2014


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Conference Management at
                         Selected Department Sites"

BACKGROUND

In support of its diverse science, energy and national security missions, the Department of
Energy sponsors and/or funds attendance of both Federal and contractor employees at a variety
of conferences and meetings. During Fiscal Year 2013, the Department expected to spend about
$125 million on approximately 9,700 events. To help ensure that such events are cost effective
and relate to the core missions, in May 2012, the Office of Management and Budget (OMB)
issued Memorandum M-12-12, Promoting Efficient Spending to Support Agency Operations.
This memorandum established rigorous conference controls, including approval by Secretarial
officers for high cost events.

In response to the OMB direction, in December 2012, the Department issued a memorandum,
Updated Guidance on Conference-Related Activities and Spending, establishing stringent
conference reporting and approval processes. While broadening reporting requirements, the
Department memorandum set up exemptions to conference reporting requirements for certain
mission related events. This memorandum also required the development of a database known
as the Conference Management Tool. Department officials told us that they developed and
deployed the tool in less than 3 months and that it has become essential to the conference
management process. According to those same officials, the tool is used to track events across
program elements and helped save $7.6 million in Fiscal Year 2013.

Because of the cost and volume of conferences, we initiated a review of selected events to
determine whether the Department had effectively managed conference expenditures and related
activities. We also inquired into the circumstances surrounding two allegations we received: the
first, that a conference was not properly reported; and, the second, that there had been a misuse
of conference funds.

RESULTS OF INSPECTION

We found that while the Department had strengthened conference reporting and approval
controls, our inspection revealed that opportunities exist to improve the management process in
this important area. Specifically, our testing 1 revealed that:

       •   Program offices inconsistently applied the event exemption criteria for 5 of 17 (29
           percent) events included in our sample. As a consequence, these events, estimated to cost
           more than $1.2 million, were not subject to the same reporting, review and approval rigor
           required for other events.

       •   The Department's Conference Management Tool contained data that was either
           inaccurate, incomplete or both for 18 of 33 (55 percent) Department-sponsored and non-
           sponsored conferences.

       •   Program officials failed to properly report and breakout food costs of approximately
           $72,000 in 2 of the 15 (13 percent) Department-sponsored and co-sponsored conferences
           we reviewed, resulting in a situation where food costs were unknowingly approved.
           Adequate cost comparisons were also not, completed for 3 (20 percent) of those same
           Department-sponsored and co-sponsored conferences.

The issues we identified with conference management occurred, at least in part, because
management did not ensure those charged with reporting or making conference-related decisions
adhered to or properly interpreted established requirements. Of particular concern, we found that
responsible personnel had not been adequately trained to appropriately apply established event
exemptions and to correctly enter required information into the Conference Management Tool.
Program officials also did not always ensure that approval packages appropriately identified food
costs as required. Finally, event coordinators told us that they did not conduct cost comparisons
and search for alternative venues because they believed or assumed that there were no other
available venues. In some cases, event coordinators believed that the Government was already
getting a good deal.

The Department has taken a number of positive actions to cancel a number of conferences,
reduce the frequency of recurring meetings and has broadened the use of video conference
technology. However, additional effort is necessary to improve transparency and assure that
Government funds are being spent appropriately, efficiently and in the best interest of the
taxpayer.

                                                     Allegations

The specific allegations we received were not substantiated. However, we found that a
contractor employee attended a non-Department sponsored, 8-day conference on a cruise ship at
Government expense. Even though the employee's attendance was approved by contractor
management officials, we noted that the cruise was not consistent with the Department guidance
that such events "…should not be held at resorts." We notified Federal officials of the event and
later learned that the responsible contractor had reimbursed the Department for the cost of the
trip to avoid any negative publicity regarding this event.



1
    See Appendix 2 for details on multi-part sampling.
                                                         2
MANAGEMENT REACTION

Management concurred with the report's recommendations and identified planned actions to
address our recommendations. We consider management's comments responsive to the report's
recommendations.

Management's comments are included in Appendix 5.

cc:   Deputy Secretary
      Deputy Under Secretary for Science and Energy
      Under Secretary for Nuclear Security and Administrator for the National Nuclear
         Security Administration
      Deputy Under Secretary for Management and Performance
      Chief of Staff




                                             3
INSPECTION REPORT ON CONFERENCE MANAGEMENT AT
SELECTED DEPARTMENT SITES


TABLE OF CONTENTS

Inspection Report

Details of Finding…………………………………………………………………………………1

Recommendations…………………………………………...……………………………………7

Management Response and Inspector Comments……….………………………………………..8

Appendices

   1. Objective, Scope and Methodology……………………………………………………....9

   2. Sampling Coverage…..…………………………………..………………………………11

   3. Judgmental Sample……………………………………………………..………………..12

   4. Related Reports…………………………………………………………………..………14

   5. Management Comments………………………………………………………………....16
CONFERENCE MANAGEMENT AT SELECTED DEPARTMENT
SITES

CONFERENCE MANAGEMENT PERFORMANCE
In December 2012, the Department of Energy (Department) issued a memorandum, Updated
Guidance on Conference-Related Activities and Spending, implementing the requirements
stipulated in the Office of Management and Budget (OMB) Memorandum M-12-12, Promoting
Efficient Spending to Support Agency Operations. Specifically, the Department's memorandum
set up conference approval authorities and thresholds. Conferences ranging from $100,000 but
less than $500,000 were to be approved by the Deputy Secretary, while all planned conferences
over $500,000 required a specific waiver from the Secretary. In addition, conferences sponsored
by the Department with expenses exceeding $100,000 were required to be publicly reported
annually on the Department's website. A conference was defined as "[a] meeting, retreat,
seminar, symposium or event that involves attendee travel." The term 'conference' may also
apply to some training activities.

The memorandum also stipulates all conference activities and approvals are to be reported
through a database. The Department's Office of Management is responsible for administering
this database known as the Conference Management Tool (CMT).

Each program office and head of contractor organization established a point of contact
responsible for populating the CMT with specific information, such as conference attendees,
costs and justifications. These entries can then be reviewed by the:

   •   Office of Management, which executes the approval process and ensures that the
       approval packages and the CMT information are consistent with timing, content and
       format. That office also provides guidance and direction on conference planning and
       management.

   •   Office of General Counsel (General Counsel) that provides guidance and legal review for
       all conference approval packages.

   •   Deputy Secretary for approval of packages over $100,000 and under $500,000.

The Department memorandum also provided for six possible event exemptions to bypass the
conference approval process and public reporting requirements. Events exempted are
categorized into six areas which include travel and meetings associated with audits and
investigations, internal agency business, bi-lateral or multi-lateral international cooperation
engagements, formal classroom training held at Federal facilities, classroom training required as
part of a certification program, and peer review and evaluation panel/board meetings.

Even though the Department memorandum provides for exemptions, it states exemptions should
be granted sparingly. This memorandum, however, does not specify who in the Department had
the authority to make the determinations of eligibility for the exemptions.

Finally, in the situations where the Department is responsible for selecting a venue for such
conferences, the Federal Travel Regulation (FTR) requires evidence of at least three cost


Details of Finding                                                                         Page 1
comparisons and an evaluation of Government facility availability. The FTR also stressed that
use of Government-owned or Government-provided conference facilities must be maximized as
much as possible. These reviews are designed to help ensure that requested expenditures are
limited to the minimum level necessary to carry out the Department's mission and are consistent
with applicable portions of the FTR and Federal Acquisition Regulation.

Conference Management

Our inspection identified opportunities to improve conference management and reporting
activities across the Department. In particular, we identified inconsistent application of event
exemption criteria and issues with CMT data integrity for a number of the specific conferences
we evaluated. We also identified issues with approvals for food costs and missing and
undocumented cost comparisons.

                 Inconsistent Application of Event Exemption Criteria

We found that program office officials inconsistently applied event exemption criteria for 5 of
the 17 (29 percent) events we reviewed. The use of exemptions eliminated the requirement for
program officials to enter event information into the CMT for tracking, monitoring and
reporting. Our review of a list provided by program offices regarding 17 exempted events
identified 5 events that did not appear to meet the applied exemption criteria. For example:

   •   The January and June 2013, as well as the January 2014 United States Particle
       Accelerator School event, which occurs twice a year at a cost to the Department of over
       $600,000 annually or $300,000 per event, was exempted. The justification used by
       program officials indicated that the event was exempted based on exemption "d," which
       allows events taking place in Federal facilities to be exempted. However, we noted that
       the last three such events were held in hotels and not in Federal facilities as required for
       events under this exemption.

   •   The November 2012 X-Ray Scattering Principal Investigator's Meeting, estimated cost of
       $135,294, was exempted based on exemption "f" which allows program review meetings
       to not be considered conferences. A senior General Counsel official explained events
       being exempted as program reviews continue to be an on-going problem because topics
       covered must be specific to a project and involve only project discussions. We were told
       that there was insufficient information regarding this conference for General Counsel to
       make an exemption determination and to alleviate this issue, this event should have been
       held in a Federal facility.

Further, we were told that because the application of event exemption criteria has been
problematic, program offices have been advised to submit all exemption requests to General
Counsel for review and approval. We were told, however, that not all program offices were
submitting exemption requests as advised. While we acknowledge that the use of exemptions is
important, inconsistent application could result in overstating or understating the Department's
reported conference expenditures and could ultimately diminish transparency.




Details of Finding                                                                          Page 2
                                       Database Integrity Issues

We determined that the CMT which is used to track, monitor and report conference expenditures,
contained data that was either inaccurate, incomplete or both for 18 of the 33 (55 percent)
conferences we reviewed. Estimated conference cost is the determining factor for approval
processing and reporting. Approval for conferences estimated to cost less than $100,000 is
subject to local policies and procedures developed by Department offices. Conferences with
costs estimated at $100,000 and above are subject to the Department memorandum and approval
by the Secretary or Deputy Secretary. Prior to entering a specific conference into the CMT, the
entry screen directs users to search the CMT to determine whether the conference has already
been entered. If an entry for the conference does not exist in the CMT, then a new entry may be
made.

Our review of the CMT identified: (1) duplicate entries; (2) multiple entries for a single
conference entered by different program offices with different information in each entry; and (3)
information reported to us from the site and program offices that often did not match the entries
in the CMT. We identified the following discrepancies:

    •   The February 2013 Ringberg Meeting, [Non-Department Sponsored 2] estimated at a cost
        of about $42,000, had the same information entered into the CMT twice. As a result, the
        Department's total estimated conference expenses reported in the CMT were overstated
        by about $42,000.

    •   The March 2013 Atmospheric Systems Research Science Team Meeting [Department
        Sponsored 3], with an estimated cost of $384,641 and 360 attendees, had been entered by
        a program office and approved by the Deputy Secretary. This same conference was re-
        entered into the CMT by two additional program offices, each with different estimated
        costs and information. The aggregated cost of the 3 entries was $573,641 with 457
        attendees which, had it been accurate, would have necessitated approval by the Secretary,
        rather than the Deputy Secretary. The 2 additional entries overstated the estimated total
        costs by approximately $189,000 and 97 attendees.

    •   The March 2013 American Physical Society Meeting [Non-Department Sponsored], with
        an estimated cost of $1,615,011, and 716 attendees was entered in the CMT. Our review
        of actual costs revealed that costs and attendees entered into the CMT by the program
        office was $115,000 less in actual costs and 23 fewer attendees than what was reported to
        the Office of Inspector General by Department sites.

After bringing the data integrity issues with CMT to management's attention, the duplicate entry
for the first example was removed. However, the remaining two examples were not modified to
reflect accurate costs or attendees. In discussions with Office of Management officials, we were
told that a "scrub" of the CMT had been started prior to the initiation of our review in

2
  A Non-Department sponsored conference is defined as a conference in which Department employees participate
but an entity other than the Department has control over most of the aspects of the conference.
3
  A Department sponsored conference is defined as a conference that the Department has control over most aspects
of the conference.


Details of Finding                                                                                      Page 3
March 2013. We found duplicate entries still existed in the CMT 9 months later. For example,
one of the entries for the Atmospheric Systems Research Science Team Meeting, was not
identified as a duplicate during the "scrub." In August 2013, we notified the program office of
the duplicate entry and it has since been removed.

The Department's Office of Management officials also told us that they added a pop-up window
to the conference entry screen in the CMT as an additional control to prevent duplicate entries.
This control requires the operator to choose to accept or ignore similar conference entries
displayed in the window before continuing to make a new entry, but additional monitoring is
needed to verify the effectiveness of this control. The scrub of the database and the addition of
the pop-up window will assist in identifying and correcting inaccurate entries; however, more
needs to be done to ensure the integrity of the database.

                                 Approvals for Food Costs

We found insufficient details to identify food costs in 2 of the 15 (13 percent) Department-
sponsored or co-sponsored conferences reviewed. These packages were submitted to the Offices
of Management, General Counsel and the Deputy Secretary for review and approval. Our review
of supporting documentation revealed that both conferences had food included under the
meetings, space and other amenities category that had not been separately identified in these
packages uploaded in the CMT. As a consequence, food costs of about $72,000 were
unknowingly approved. Specifically, we determined that:

   •   The August 2012, Basic Energy Sciences Detector Workshop [Department Sponsored],
       with an estimated cost of $155,335, provided approximately $10,000 in food; and,

   •   The July 2012, Department of Energy Office of Science Graduate Fellowship Annual
       Research Meeting [Department Sponsored], with an estimated cost of $454,600, provided
       approximately $62,000 in food.

The FTR requires that when food is provided, the travelers' per diem allowances must be reduced
appropriately and that these reductions should be clarified in advance of travel. Despite this
requirement, we determined that per diem allowances for meals were not reduced in one of the
two examples. Travelers did not reduce their per diem in 54 percent of the Basic Energy
Sciences Detector Workshop travel expense reports, for a total cost to the Department of $1,341.
We notified appropriate officials who indicated that they are in the process of recouping these
funds. A General Counsel official told us that when reviewing conference approval packages,
providing food is the most frequent problem area. Therefore, reviewers need to know when
conferences seeking approval are planning to provide food so they can ensure that travelers will
reduce their per diem allowances accordingly.

Further, our office recently issued a report on The Department of Energy's Energy Innovation
Hubs (OAS-M-13-08, September 2013), which addressed costs for meals and meeting
refreshments for conferences held at these hubs. The report identified issues with
inappropriately provided food at conferences. Based on our review, it appears that additional
attention is required in this area.


Details of Finding                                                                        Page 4
                     Missing and Undocumented Cost Comparisons

The FTR requires a minimum of three cost comparisons to ensure responsible officials maximize
the use of Government-owned or Government-provided conference facilities to the extent
possible. Department officials could not provide adequate evidence to demonstrate that cost
comparisons were completed for 3 of the 15, Department-sponsored conferences reviewed.
These three conferences with estimated costs of $305,000 were:

   •   Basic Energy Sciences Detector Workshop, August 2012, with an estimated cost of
       $155,335. A senior Department official told us that Government facilities were not
       available, but could not provide documentation to support any research to support the
       official's assertion.

   •   International Nonproliferation Export Control Program Review, June 2012, with an
       estimated cost of $75,000. A senior National Nuclear Security Administration official
       told us that no other facilities were available due to the concurrent scheduling of another
       large event near the venue location and as such, the official did not continue searching
       after the first available venue was identified. We found that even after it became
       necessary to reschedule the conference for the following week, the event coordinator did
       not evaluate alternative venues, but simply changed the dates with the same facility.

   •   International Nonproliferation Export Control Program Review, June 2013, with an
       estimated cost of $75,000. The same National Nuclear Security Administration official
       cited previously said that the same venue from the previous year's meeting had offered an
       additional discount and was contracted again for the 2013 meeting without exploring
       other options.

Although we requested cost comparison documentation regarding these conferences, no
information was provided. While informal venue expenditure inquiries may contribute to
discounts and lower costs, the cost comparison process provides the best assurance that Federal
funds are being spent efficiently and appropriately and in the best interests of the taxpayer.

Actions Taken by the Department

In response to an initial draft of this report, Department officials reported that they have changed
the culture by institutionalizing best practices in conference management and associated cost
savings measures. These cost cutting measures include urging the use of Government facilities,
early registration discounts, low-cost airfares, limiting participation, minimizing rental car usage
and maximizing in house resources. Department officials also reported that they saved $7.6
million by cancelling, postponing and reducing conference attendance and booth space in Fiscal
Year 2013.




Details of Finding                                                                          Page 5
Contributing Factors and Impact

The issues we identified with conference management occurred, at least in part, because
management did not ensure those charged with reporting or making conference related decisions
adhered to or properly interpreted established requirements. Of particular concern, we found that
responsible personnel had not been adequately trained to appropriately apply established event
exemptions and to correctly enter required information into the CMT. Program officials also did
not always ensure that approval packages appropriately identified food costs as required.
Finally, the event coordinators for the three conferences in question, told us that they did not
conduct cost comparisons and search for alternative venues because they believed or assumed
that there were no other available venues and/or that the Government was already getting a good
deal.

While it appears that the Department has taken steps towards improving conference
management, more needs to be done to promote transparency and assure that Government funds
are spent appropriately, efficiently and in the best interest of the taxpayer.

Complaints and Other Matters

The specific allegations we received regarding conferencing matters were not substantiated. We
did, however, find that a Department contractor employee attended a conference at the
Department's expense which we felt was outside the parameters of existing Department
guidance.

In its Conference Management Best Practices guidance, Office of Management advises
conference attendees that Federal funds should be used for appropriate purposes and conferences
should not be held at resorts. Nevertheless, our review found that a contractor employee
attended a non-sponsored conference (included in our sample), Study of Matter at Extreme
Conditions. The was an 8-day conference that took place aboard a ship, cruising the Caribbean
in March 2013.

In light of current Departmental efforts to moderate its conferencing costs, we believe that
attendance of this conference may not have been consistent with this goal. In response to our
inquiries, the contractor assumed the $2,270 cost of the conference to avoid the potential
negative public perception of this event. We confirmed that the funds were returned to the
Department.




Details of Finding                                                                       Page 6
RECOMMENDATIONS
Based on the issues identified in the report, we believe that the Department can take a number of
steps to improve the monitoring and reporting of conferences. To address the issues outlined in
our report, we recommend that the Director, Office of Management:

   1. Establish procedures to ensure event exemptions are appropriately applied;

   2. Update training to provide detailed steps on how to interpret and apply established event-
      exemptions;

   3. Identify and correctly enter the required information in the CMT;

   4. Perform periodic reconciliations to mitigate inaccurate and duplicate data in the CMT;

   5. Promote transparency by ensuring Program officials provide an adequate breakdown of
      food costs in the approval package so that managers have sufficient detail to make
      informed approval decisions; and

   6. Ensure that existing requirements to complete and document cost comparisons are met
      prior to conference approval.




Recommendations                                                                          Page 7
MANAGEMENT RESPONSE AND INSPECTOR COMMENTS
Management concurred with our recommendations and indicated that it was in the process of
implementing corrective actions. We found management's comments and planned corrective
actions to be generally responsive to our report findings and recommendations. In response to
Recommendations 1 through 6, the Office of Management issued a memorandum on May 9,
2014, reminding Department elements to seek clarification from General Counsel on event
exemptions when appropriate. The Office of Management also said that it would continue to
discuss the event exemption process, CMT data integrity, food costs and adequate cost
comparisons at quarterly conference working group meetings and at the Best Practices Working
Group to resolve challenges and develop standard protocols.

We modified our report, as necessary, in response to management's comments. Management's
comments are included in Appendix 5.




Management Response and Inspector Comments                                            Page 8
                                                                              APPENDIX 1

                   OBJECTIVE, SCOPE AND METHODOLOGY
Objective

We initiated a review of selected conferences to determine whether the Department of Energy
(Department) has effectively managed conference expenditures and related activities. Further,
we received allegations that one conference was not reported and that Federal funds were
misused regarding another conference. We incorporated these allegations into our review.

Scope

We conducted the fieldwork for this performance inspection between March 2013 and June
2014. We downloaded all conferences included in the Department's Conference Management
Tool on March 1, 2013, which included 5,140 past and planned conferences for the years 2012
through 2013. Our judgmental sample, identified in Appendix 3, included 33 conferences from
the Conference Management Tool in which 31 sites or program offices had participated. The
total estimated cost of the 33 conferences in our review was $6,790,073. The inspection was
conducted under Office of Inspector General Project Number S13IS007.

Methodology

To accomplish the inspection objective, we:

   •    Reviewed applicable regulations, directives and policies related to conference
        management;

   •    Reviewed and analyzed information regarding event exemptions and information
        contained in the Department's Conference Management Tool required for documenting
        and approving Department conferences;

   •    Interviewed appropriate officials from Headquarters and Department and contractor
        officials at selected Department sites; and

   •    Reviewed conferences identified in our judgmental sample (see Appendices 2 and 3).

We conducted this performance-based inspection in accordance with the Council of the
Inspectors General on Integrity and Efficiency's Quality Standards for Inspection and Evaluation.
Those standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provided a reasonable basis for our
conclusions and observations based on our inspection objective. Accordingly, the inspection
included tests of controls and compliance with laws and regulations to the extent necessary to
satisfy the inspection objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our inspection.
Also, we assessed the Department's compliance with the Government Performance and



Objective, Scope and Methodology                                                         Page 9
                                                                            APPENDIX 1

Results Modernization Act of 2010 and determined that the Department had established
performance measures, in general, as applicable. Finally, we relied on computer-processed data,
to some extent, to satisfy our objective. We confirmed the validity of such data, when
appropriate, by reviewing source documents.

Management waived the exit conference.




Objective, Scope and Methodology                                                      Page 10
                                                                                               APPENDIX 2

                                          SAMPLING COVERAGE
    We selected a judgmental sample of 33 conferences either held or attended by Department of
    Energy (Department) or contractor employees. We selected these conferences because they had
    already occurred, were the highest cost to the Department, were held in unusual locations or
    were sponsored by the Department and may have required senior level approval.

                  Under $20K       $20K to $100K       $100K to $500K       Over $500K        Total           Value
       Statistical Data:
CMT Population
*                  4248 (83%)         720 (14%)           154 (3%)            18 (<1%)        5140        $104,277,181


                 Judgmental Sampling Coverage (Percentage is percent of Population for each category):
Conferences
Reviewed            1 (.02%)          20 (2.7%)           10 (6.5%)          2 (11.1%)         33       $6,790,073 (6.5%)
Sponsored/Co-
sponsored            0 (0%)            9 (1.3%)            6 (3.9%)            0 (0%)          15       $2,830,055 (2.7%)
Non sponsored
Conferences         1 (.02%)          11 (1.5%)            4 (2.6%)          2 (11.1%)         18       $3,960,018 (3.8%)

    Legend:          CMT – Conference Management Tool

    * The population included the number of conferences entered into the CMT with both estimated and actual costs for
      Calendar Years 2012 and 2013, as of March 1, 2013.

      We determined the database information for Fiscal Year 2012 to be unreliable for purposes of identifying a total
      population because the CMT was not in place until after December 2012. However, we selected our judgmental
      sample from the CMT conferences obtained as of March 2013, which included conferences from 2012 and 2013.
      Later in our inspection, we accessed the CMT to obtain more current conference information for Fiscal Year
      2013. We used software to identify and remove the duplicate entries to provide a more reliable total population
      for Fiscal Year 2013. The updated conference information for Fiscal Year 2013 shows the Department estimated
      to spend about $125 million on approximately 9,700 conferences.

      Note: Continuing Appropriations Act of 2013 required that all conferences with costs greater than $20,000 be
      reported to the Office of Inspector General.




    Sampling Coverage                                                                                       Page 11
                                                                                 APPENDIX 3

                                       JUDGMENTAL SAMPLE
             Conference Sample                Conference Location    Estimated     Actual       Page
                                                                       Costs       Costs      Reference
1    11th Coordinated Working Group      Madrid, Spain                 $57,000            *
2    12th U.S-China Oil and Gas          San Antonio, Texas            $90,000      $70,246
     2012 IEEE Nuclear Science           Disneyland, Anaheim,
3    Symposium                           California                   $400,200     $121,802
     24th Annual Weapons Complex
4    Monitor                             Jacksonville, Florida         $48,691      $28,695
     2nd International Workshop on
5    Integration                         Lisbon, Portugal              $39,000      $16,100
     36th Annual International
6    Conference High Energy Physics      Melbourne, Australia         $350,000     $223,211
     5th International Conference on
7    Fission                             Sanibel Island, Florida       $70,000      $67,349
                                         Washington, District of                                 5,6
8    INEC Program Review 2012            Columbia                      $75,010      $68,799
     Keeping the Lights On: A                                                                    6,7
9    Roundtable                          Puerto Rico                         **     $45,055
     American Conference on Neutron      Washington, District of
10   Scattering                          Columbia                     $155,000     $207,090
11   American Physical Society           Baltimore, Maryland         $1,615,011    $927,940       3
12   Analytic Exchange                   Canberra, Australia            $80,000     $65,620
13   BES Detector Workshop               Gaithersburg, Maryland       $155,335      $83,147      4,5
14   Big Boss                            Shanghai, China                $83,500     $37,779
15   Clean Cities Peer Review            Estes Park, Colorado         $159, 896    $137,874
16   DOE Grad Fellows Annual Meeting     Upton, New York              $454,634     $420,600       4
17   Graduate Students Awards Lindau     Lindau, Germany              $241,000     $166,397
18   Heart Conference                    Albuquerque, New Mexico        $96,545           *
19   International Battery Association   Barcelona, Spain               $86,818     $76,754
     International Symposium on
20   Plasticity                          Nassau, Bahamas               $97,350      $78,837
21   KSTAR 2013                          Chungchengnam-do, Korea       $57,128      $15,525
     Materials Research Society Fall
22   Meeting                             Boston, Maine                $913,184     $683,167
     National Reservation Economic       Mandalay Bay, Las Vegas,
23   Summit                              Nevada                        $82,397      $53,241
24   R&D 100 Awards                      Orlando, Florida             $133,471      $44,779
25   Ringberg Castle Meeting             Bavaria, Germany              $42,210      $23,734       3
     South Africa Regional Border
26   Security                            Pretoria, South Africa       $260,116     $217,380
     Study of Matter at Extreme                                                                   7
27   Conditions                          Celebrity Reflection Ship      $5,150       $2,270
28   Technical Experts Working Group     Brasilia, Brazil             $118,500      $65,966
29   TIP2013                             Honolulu, Hawaii              $96,010      $85,218



     Judgmental Sample                                                                  Page 12
                                                                                              APPENDIX 3
              Conference Sample                    Conference Location            Estimated         Actual         Page
                                                                                    Costs           Costs        Reference
     United States Particle Accelerator                                                                              2
30   School                                   Durham, North Carolina                 $328,142       $256,955
                                              Washington, District of                                                5
31   INEC Program Review 2013                 Columbia                                $75,010             ***
     Atmospheric Systems Research             Washington, District of                                                3,4
32   Science Mtg.                             Columbia                               $384,641             ***
     US-CTA Mechanical Structure
33   Meeting                                  Argonne, Illinois                       $99,000              *
     Totals                                                                        $6,790,073     $4,291,530

     * Actual costs were not obtained as the conference was canceled or not attended.
     ** Estimates not provided as conference not entered into CMT.
     *** Limited review performed on these conferences because of specific issues
         identified during our inspection.
     Conference names that are shaded represent Department Sponsored or Co-Sponsored. 4




     4
      A Department co-sponsored conference is defined as a conference that the Department has provided funding but
     has little or no control over the aspects of the conference.



     Judgmental Sample                                                                                    Page 13
                                                                           APPENDIX 4

                                 RELATED REPORTS
Office of Inspector General Reports

   •   Audit Report on The Department of Energy's Energy Innovation Hubs, (OAS-M-13-08,
       September 2013). The audit was initiated to determine whether the Department of
       Energy (Department) was effectively managing its Energy Innovation Hubs program.
       The report determined that the Department had not effectively managed conference and
       meeting costs for the Hubs. The Hubs claimed costs for "working" meals and meeting
       refreshments that were unreasonable when considered in light of recent attempts to
       reduce and control travel and conference-related spending. Specifically, it was
       determined that the Buildings and Modeling Hubs frequently provided group meals and
       refreshments and meetings and conferences, expenditures that amounted to $103,472
       through May 2012. The Sunlight Hub spent $157,991 on conferences and meetings
       where meals and refreshments were served through May 2012. Of this amount, $123,808
       was spent to host two annual all-hands conferences and another $11,411 was spent on an
       annual performance review.

   •   Inspection Report on Office of Science Laboratory Conferences, (DOE/IG-0794, May
       2008). The objective of this review was to determine whether the conferences were
       managed cost effectively and consistent with applicable policies and regulations. The
       report determined that the Oak Ridge National Laboratory incurred "unreasonable" costs
       associated with conference-provided meals. At one 4-day conference in 2007, the
       Department spent over $230,000 to provide meals for approximately 318 attendees.
       While it is an admittedly subjective judgment, we found these meals to be upscale and
       elaborate, which was reflected in the cost of the conference. Such costs are generally
       treated as unallowable. Additionally, Oak Ridge National Laboratory had not requested
       or obtained Department approvals prior to holding a number of conferences during Fiscal
       Years 2005 through 2007. Such approvals help ensure, among other things, that
       conference locations and costs are appropriate. Oak Ridge National Laboratory also had
       not provided conference information for inclusion in the Department's Conference
       Management System database, resulting in a material understatement of Department
       conferences and conference costs.

General Services Administration Report

   •   U.S. General Services Administration (GSA) Office of Inspector General Management
       Deficiency Report on Public Buildings Service 2010 Western Regions Conference, (April
       2, 2012). The GSA Deputy Administrator requested that the GSA Office of Inspector
       General investigate allegations of possible excessive expenditures and employee
       misconduct in connection with the 2010 Western Regions Conference. The Office of
       Inspector General found that GSA spending on conference planning was excessive,
       wasteful, and in some cases, impermissible. For example, to select a venue and plan the
       conference, GSA employees conducted two "scouting trips," five off-site planning
       meetings, and a "dry run." Further, GSA failed to follow contracting regulations in many
       of the procurements associated with the Western Region Conference and wasted taxpayer


Related Reports                                                                       Page 14
                                                                             APPENDIX 4

       dollars. GSA actions included disclosing a competitor's proposal price to a favored
       contractor and providing free rooms to a contractor's employees even though the contract
       cost included lodging. Further, GSA incurred excessive and impermissible costs for food
       at the Western Region Conference, GSA incurred impermissible and questionable
       miscellaneous expenses, and GSA's approach to the conference indicates that minimizing
       expenses was not a goal.

Department of Justice Report

   •   Report on Audit of Department of Justice Conference Planning and Food and Beverage
       Costs, (Audit Report 11-43, September 2011). The objective of this review was to assess
       event planning and food and beverage costs to identify whether there were expenditures
       indicative of wasteful or extravagant spending. The Department of Justice Office of
       Inspector General determined that although firms hired by Department of Justice
       components to plan conferences incurred over $600,000 in planning costs, about
       $556,000 in charges (93 percent) were not included on mandated Department of Justice
       conference costs reports. The 10 conferences reviewed by this audit collectively incurred
       about $490,000 in food and beverage costs. Once applicable service charges, local sales
       taxes, and indirect costs were factored into the final prices, some meals and refreshments
       not only exceeded what would have been allowable under April 2008 Justice
       Management Division meal and refreshment cost limits, but also they appeared
       extravagant and potentially wasteful. For example, costs included $65 dinners, $76
       lunches, $41 breakfasts, and $32 per person refreshments.




Related Reports                                                                         Page 15
                                            APPENDIX 5

                      MANAGEMENT COMMENTS




Management Comments                              Page 16
                      APPENDIX 5




Management Comments        Page 17
                      APPENDIX 5




Management Comments        Page 18
                      APPENDIX 5




Management Comments        Page 19
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
